                                                                            OIG Recovery Act Plan Overview

                                          OIG Name: Department of State (including the U.S. Section of the International Boundary and Water Commission (USIBWC)


                                                   The overall objectives of OIG's oversight of Department of State Recovery Act funds are to ensure: 1) timely, effective implementation of
                                                   Recovery Act projects and activities in compliance with ARRA requirements; 2) timely, accurate reporting on the use of Recovery Act funds and
                     OIG Broad Recovery Act Goals:
                                                   the progress of ARRA-funded projects and activities; 3) establishment of proper internal control procedures to mitigate instances of fraud, waste,
                                                   error, and abuse; and 4) confirmation that contractors and other fund recipients meet eligibility requirements and comply with award requirements.


                                                OIG has initiated an ongoing dialogue with Department and USIBWC managers and coordinators responsible for Recovery Act implementation,
                                                providing targeted information on fraud awareness, contract/procurement best practices, and internal controls. Hotline posters and publications and
                                                OIG's Internet and intranet Web sites are being updated to highlight and facilitate Hotline reporting of waste, fraud, abuse, and mismanagement
         OIG Broad Outreach Recovery Act Goals:
                                                related to the Recovery Act funding and projects. Fraud awareness briefings are being expanded and focused to highlight fraud indicators and
                                                vulnerabilities specific to Recovery Act. OIG is an active participant in RATB Working Group activities and coordinates across the Inspector
                                                General and oversight communities on Recovery Act oversight initiatives.

                                                To ensure effective identification, monitoring, and mitigation of the major financial and programmatic risks related to Recovery Act funds, OIG
                                                has met with senior managers responsible for Department ARRA coordination and individual bureaus receiving Recovery Act funds to gain an
                                                understanding of the Department's implementation plans and determine where control weaknesses may exist. OIG holds periodic consultations
                                                with the Office of the Under Secretary for Management (M/PRI) and the Chief Financial Officer (CFO) to coordinate overall Recovery Act
      OIG Recovery Act Risk Assessment Process: oversight, including the receipt of regular reports on the current status of funds obligated and expended. Based on these consultations, information
                                                provided by the Department and IBWC, and an internal analysis of the Department and IBWC implementation plans, OIG has identified the most
                                                significant programs upon which to focus its oversight efforts. Initial oversight projects include audits and inspections to: 1) assess the overall
                                                controls that the Department and USIBWC have in place to track and report Recovery Act funds, and 2) highlight key challenges, including the
                                                adequacy of procurement personnel, facing the Department in overseeing ARRA-funded programs and projects.


                         OIG Recovery Act Funds: $2,000,000
      Expiration Date of OIG Recovery Act Funds: 2010
                                                       $57,500,000 (includes $37,000,000 in FY 2009 base appropriations; $15,500,000 in FY 2009 bridge funding; and $5,000,000 in FY 2008-09
           FY 2009 OIG Non-Recovery Act Funds:
                                                       supplemental funding)

     Number of OIG Planned Recovery Act Hires: No direct-hire FTE are planned.

        OIG Recovery Act Funds to be Allocated to
                                                  Yes
                                      Contracts:
                                                       Contractors will be used to augment existing OIG staff, as necessary, and to provide specialized subject matter expertise not available in-house
                Purpose of Recovery Act Contracts:
                                                       (e.g., architects and engineers).
      Types of Recovery Act Contracts Awarded to
                                                 None awarded to date.
                                          Date:

   Link to OIG FY 2009 Recovery Act Work Plan:




Page 1 of Overview                                                                                                                                                      State
                                                                                                                                                                        State  OIG 
                                                                                                                                                                               OIG Recovery
                                                                                                                                                                                    Recovery  Act
                                                                                                                                                                                              Act  FINAL
                                                                                                                                                                                                   FINAL  Work
                                                                                                                                                                                                          Work  Plan
                                                                                                                                                                                                                Plan  052909.xlsx
                                                                                                               OIG FY 2009 Recovery Act Work Plan

                                                      Type of Review 
                                                                                                                                                                                                                                       Expected  Expected 
                                    Agency Recovery  (Administrative /  Entity Performing 
                                                                                                                                                                                                                                       Quarter in  Quarter in  Expected 
                                       Act Funds         Financial,       Review (OIG 
     Agency       Program Area                                                                      Project Title                            Background                                             Objective                           Which  which Final  Number of 
                                      Associated        Eligibility,    Staff, Contractor, 
                                                                                                                                                                                                                                       Work will  Report will  Reports
                                    w/Program Area     Performance,           Other)
                                                                                                                                                                                                                                         Start     be Issued
                                                           Other)

                                                                                                                                                                                As of May, 15, 2009, OMB has not released funds 
                                                                                              Inspection of the Office 
                                                                                                                          A/RPM, in coordination with GSA, will be              for the ARRA‐funded projects.  Although it is 
                                                                                              of Real Property 
                  Real Property                         Administrative/                                                   involved in property site selection, construction,    likely that the inspection will conclude prior to 
    State Dept.                     $342 million                              OIG Staff       Management (A/RPM)                                                                                                                        Q3 FY09    Q4 FY09         1
                  Management                              Financial                                                       and renovation projects being funded with $342        A/RPM initiating actions, the inspection is 
                                                                                              in the Bureau of 
                                                                                                                          million in ARRA funds.                                evaluating controls and systems in place for 
                                                                                              Administration
                                                                                                                                                                                existing projects.

                                                                                                                          The Department received $600 million in ARRA 
                                                                                              Audit of Department                                                               This audit will evaluate whether the Department 
                                                                                                                          funds, which are planned for several large 
                                                        Administrative/                       Controls for Tracking                                                             has adequate controls in place to effectively 
    State Dept.        All          $600 million                             Contractor                                   programs and projects that include the Rio                                                                    Q4 FY09    Q2 FY10         1
                                                          Financial                           and Reporting ARRA                                                                track and report on its $600 million in Recovery 
                                                                                                                          Grande Flood Control System, Data Center, Hard 
                                                                                              Funds                                                                             Act funds.
                                                                                                                          Skills Training Center, and Cyber Security Tools. 

                                                                                                                          The U.S. Section of the International Boundary 
                                                                                              Audit of the 
                U.S. Section of the                                                                                       and Water Commission (USIBWC) received $220 
                                                                                              International Boundary                                                            This audit will evaluate whether the International 
                  International                                                                                           million in ARRA funds.  These funds  are planned 
                                                        Administrative/                       and Water                                                                         Boundary and Water Commission has adequate 
    State Dept.   Boundary and   $220 million                                Contractor                                   for upgrading the Rio Grande Flood Control                                                                Q4 FY09        Q2 FY10         1
                                                          Financial                           Commission's Controls                                                             controls in place to track and report on its $220 
                      Water                                                                                               System infrastructure along 506 miles of flood 
                                                                                              for Tracking and                                                                  million in Recovery Act funds.
                   Commission                                                                                             control levees maintained by the USIBWC along 
                                                                                              Reporting ARRA Funds
                                                                                                                          the Upper and Lower Rio Grande River.

                                                                                                                     The Department received $600 million in ARRA 
                                                                                                                                                                                This audit will highlight key Department 
                                                                                                                     funds, which are planned for several large 
                                                                                                                                                                                oversight challenges and identify actions the 
                                                                                              American Recovery and  programs and projects that include the Rio 
                                                                                                                                                                                Department should take now in support of ARRA 
                                                                                              Reinvestment Act of    Grande Flood Control System, Data Center, Hard 
                                                        Administrative/                                                                                                         requirements. OIG also will  summarize and 
    State Dept.        All          $600 million                              OIG Staff       2009: Oversight        Skills Training Center, and Cyber Security Tools.                                                                  Q4 FY09    Q1 FY10         1
                                                          Financial                                                                                                             distribute to appropriate Department bureaus a 
                                                                                              Challenges Facing the  The majority of the Department's ARRA funding 
                                                                                                                                                                                description of all open OIG recommendations 
                                                                                              Department of State    will be obligated and expensed under multiple 
                                                                                                                                                                                related to procurement and contract 
                                                                                                                     vendor procurements for equipment and 
                                                                                                                     vendor procurements for    equipment and
                                                                                                                                                                                administration.
                                                                                                                     services.

                                                                                                                     Section 1523(a)(2)(D)of the Recovery Act 
                                                                                                                     requires the Recovery Accountability and 
                                                                                                                                                                                This review will evaluate whether the 
                                                                                                                     Transparency Board to review whether there are 
                                                                                                                                                                                Department has qualified contract and grant 
                                                                                                                     sufficient qualified acquisition and grant 
                                                                                                                                                                                personnel overseeing Recovery Act funds. The 
                                                                                              Procurement Personnel  personnel overseeing ARRA funds. Given its 
    State Dept.        All          $600 million         Other Review         OIG Staff                                                                                         results of OIG's survey will be incorporated into a     Q4 FY09    Q1 FY10         1
                                                                                              Survey                 limited staff, RATB has requested IG community 
                                                                                                                                                                                broader report on the adequacy of  acquisition 
                                                                                                                     assistance in conducting a Procurement and 
                                                                                                                                                                                and grant personnel governmentwide to provide 
                                                                                                                     Grant Staff Inspections Checklist/Survey at their 
                                                                                                                                                                                oversight of Recovery Act funds.
                                                                                                                     respective agencies, which will serve as the 
                                                                                                                     foundation for the mandated report.


   Type of Reviews
   Administrative/Financial Reviews ‐ reviews of management administrative issues, management internal controls, or financial systems/processes
   Eligibility Reviews ‐ reviews to determine if eligibility requirements were met for a given program
   Performance Reviews ‐ reviews to determine the effectiveness of a given program
   Other Reviews ‐ reviews that do not fit within the above categories




Page 2 of Work Plan                                                                                                                                                                                                                                          State OIG Recovery Act FINAL Work Plan 052909.xlsx
